CERTIFICATE OF SERVICE
No. 21-312
VOLKSWAGEN AKTIENGESELLSCHAFT, ET AL.,
Petitioner,
v.
STATE OF OHIO EX REL. DAVE YOST, ATTORNEY GENERAL,
Respondent.
I, Carter G. Phillips, do hereby certify that, on this thirtieth day of
September, 2021, I caused three copies and an electronic copy of the Brief Amici
Curiae of International Organization of Motor Vehicle Manufacturers, European
Automobile Manufacturers’ Association, and European Association of Automotive
Suppliers in Support of Petitioners in the foregoing case to be served by first-class
mail, postage prepaid, and by email, on the following:
ROBERT J. GIUFFRA, JR.
Sullivan & Cromwell LLP
125 Broad Street
New York, NY 10004
(212) 558-3121
giuffrar@sullcrom.com
Counsel for Petitioners

BENJAMIN M. FLOWERS
Solicitor General
Ohio Attorney General’s Office
30 East Broad Street
Columbus, OH 43215
(614) 466-8980
benjamin.flowers@ohioattorneygeneral.gov
Counsel for Respondents
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

